HHS/OIG, Audit -"Medicaid Payments for School-Based Health Services, Rhode Island, for the Period July 1999 Through June 2001,"(A-01-02-00014)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for School-Based Health Services, Rhode Island, for the Period July 1999 Through June 2001," (A-01-02-00014)
February 18, 2004
Complete
Text of Report is available in PDF format (380 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for
school-based health services by Rhode Island were allowable under the terms of the State Medicaid plan and applicable Federal
or State requirements.  We reviewed a statistically valid sample of 200 medical services from the State's two largest
local education agencies (Providence and Pawtucket), which represented $82 million or about one-third of the State agency's
claim for school-based health services.  We concluded that 83 medical services (containing 99 payment errors) did
not meet Medicaid reimbursement requirements.  As a result, we estimate that at least $1.2 million (Federal share)
was unallowable for reimbursement.  Proper internal controls were not always established or sufficient because the
local education agencies were not always made aware of all Medicaid billing requirements.  Further, we found the State
agency did not always provide sufficient oversight and monitoring of school-based services to ensure local compliance with
Federal and State regulations and guidelines.  We recommended a financial adjustment for $1.2 million, and procedural
improvements to correct noted weaknesses.